OIG Information Digest
NUREG/BR-0304 Volume 4 ,Number 2                                                                   October 2007



                               Property and Supplies
                               The Federal Government spends bil-          •   Promptly report the loss, damage
                               lions of dollars each year to purchase          theft, destruction, or removal of
                               equipment and supplies. Unfortu-                property from its assigned location.
                               nately, a significant percentage of
                               these items are stolen or misused,          •   Account for all property listed on
                               wasting our tax dollars and impeding            receiving documents (i.e., parking
                               the agencies’ ability to perform their          slips, receipts, invoices) before
    Inside this issue:
                               missions. In this issue of the OIG In-          acceptance and provide copies of
                               formation Digest, we are going to               the documents to the property cus-
                               cover some of the responsibilities each         todian.
 Property & Supplies     1-2
                               employee has to exercise good stew-
                                                                           •   Sign NRC Form 119 before receiv-
                               ardship over government equipment.
                                                                               ing custody of sensitive property.
 Audit of NRC’s Non      3     We’ve included several examples of
 Capitalized Property          property theft and diversion from           Supplies
                               across the government. Hopefully,
 Property Audit of FBI   3     this information will help all of us keep   Supplies are readily available to all
                               the NRC’s resources focused on sup-         headquarters employees in the self-
 Stolen DOT Com-         4     porting our responsibilities to regulate    service Supply Store located on the
 puters                        the nuclear industry.                       P1 level of One White Flint North.
                                                                           NRC contractor personnel may not
 Press Releases on       5     Individual Responsibilities                 directly request Government-furnished
 Stolen Property                                                           supplies nor use the Supply Store. If
                               Regulations should be adhered to
                                                                           authorized by the contract, project offi-
 Something Vishy—A
                               when using Government equipment
                         6                                                 cers may request supplies for contrac-
 New Scam                      and supplies. Management Directive
                                                                           tor use or accompany contractors to
                               13.1 outlines the use of property and
                                                                           the Supply Store.
 Internet Crime—The      7     supplies by NRC employees to provide
 Latest Numbers                sufficient controls to deter or eliminate   Unneeded supplies should be re-
                               loss through fraud, waste, or misuse.       turned to the Supply Store or placed in
                                                                           supply return boxes located in each
                               As outlined in Management Directive
                                                                           building. Specific locations for these
                               13.1, Part I, NRC employees have the
                                                                           boxes are given on the ADM Web site,
                               responsibility to:
                                                                           Administrative Services Home Page,
                               •   Properly care for, protect, and con-    under “Recycling.” Returned supplies
                                   serve NRC property assigned to          will be examined by store personnel to
                                   them.                                   determine if they are reusable.

                               •   Use NRC property for officially ap-
                                   proved purposes only, including
                                   property leased to the NRC.
Page 2                                      OIG Information Digest                                      NUREG/BR-0304



Property and Supplies                                          (con’t from page 1)


Usable supplies will be placed        insurance company as support-                  According to Management Di-
on Supply Store shelves, and          ing documentation for NRC re-                  rective 13.1 Part I, Property
NRC employees are encour-             cords. If the property is not                  Custodians must:
aged to reuse these items rather      found within 10 days, the em-
                                      ployee’s Property Custodian will               ∗   Ensure that property holders
than take new supplies. These
                                      fill out form 395 and submit to                    are made aware of their re-
supplies are not to be used for
                                      the Chief of PSB.                                  sponsibilities for the use and
personal use nor to take home
                                                                                                  care of NRC prop-
and use as school supplies for
                                      Financial Liability                                         erty at the time the
children or for a personal busi-
                                                                                                  property is assigned
ness or other personal activities.    Employees may be held
                                                                                                  to them.
                                      financially liable for any
Theft of Government Property
                                      missing or damaged govern-                     ∗   Participate in official property
Theft of Government Property at       ment property assigned to them.                    inventories by accompanying
Headquarters should be re-            If found liable the employee will                  the DCPM inventory team,
ported as soon as                     be required to pay the govern-                     assisting in locating missing
possible to the near-                       ment the depreciated value                   equipment, and providing
est guard station.                          for the lost or stolen equip-                purchase documentation for
The guard will com-                         ment if found to be the fault                any non-tagged equipment.
plete a Security Inci-                      of the employee due to
                                            careless disregard or a                  ∗   Attend periodic training pro-
dent Report and
                                            “willful act.” Employees                     vided by ADM to keep cur-
submit it to the Chief
                                            should provide the degree                    rent on procedures govern-
of the Physical Se-
                                            of care for Government                       ing the agency’s property
curity Branch (PSB).
                                            property as they would their                 management program.
He will then forward
the results of his investigation      personal property.                             ∗   Tag new equipment immedi-
along with a copy of the NRC                                                             ately upon receipt and for-
                                      Property Custodians Responsi-
Form 1345 to OIG within 24                                                               ward the tag assignment
                                      bilities
hours after the loss or suspected                                                        sheet and purchase docu-
theft. If the theft occurs at a re-   There is much more emphasis                        mentation to DCPM no later
gional office or a remote NRC         placed on Property custodian                       than 5 days after the tag is
location, the employee must no-       duties and responsibilities than                   placed on equipment.
tify the Property Custodian,          individual employees. Property
Physical Security Branch, and         custodians are responsible for                 ∗   Keep tags secure at all times
the IG within 24 hours of the                                                            and use tags sequentially.
loss or suspected theft.                                                                 Ensure that there are no
                                                                                         gaps in tag numbers as-
If a theft occurs outside of NRC                                                         signed. (The SPMS system
space the employee should im-                                                            administrator must assume
mediately notify the proper law                                                          that gaps serve as an indica-
enforcement authority. It is the                                                         tion that property has been
responsibility of the employee to                                                        tagged but acquisition docu-
file claims with airlines or insur-                                                      mentation has not been pro-
ance carriers for all government                                                         vided to DCPM in a timely
property as soon as possible                                                             manner.)
                                      maintaining an effective, effi-
after theft occurs. Employees
                                      cient, and accurate property                   NOTE: For complete information
must remember to provide a
                                      management program.                            consult MD 13.1.
copy of the police report and
statements received from the
NUREG/BR-0304                                  OIG Information Digest                               Page 3



Audit of NRC’S Non-Capitalized Property
A recent OIG audit was con-          ∗   Physical security deficiencies        ties and assure optimum utilization
ducted to determine whether              exist; and                            of staff time, property and fiscal
NRC has established and imple-                                                 resources.
mented an effective system of        ∗   The policy for notifying Office
management controls for main-            of the Inspector General (OIG) Recommenda-
taining accountability and control       of missing property needs im- tions from Audit
of non-capitalized property.             provement.                      Report

While NRC’s property manage-         In light of NRC’s imminent growth         This report made
ment policies for non-                         in full-time equivalents        recommendations to the Executive
capitalized property pro-                      (FTE), and anticipated          Director for Operations to help
vide a framework to con-                       office relocations, it is in-   NRC strengthen the effectiveness
trol and safeguard prop-                       creasingly important that       of management controls with re-
erty, the program, as im-                      NRC maintain effective          spect to maintaining accountability
plemented, needs im-                           and efficient accounting        and control of non-capitalized
provement to provide effective       and control over non-capitalized          property. This report also recom-
control. Specifically:               property. Therefore, now is an            mends that the threshold for ac-
                                     opportune time for NRC manage-            countable non-sensitive property
∗   SPMS data is not accurate;       ment to increase accountability           be raised so that property custodi-
                                     for, and improve control of, the          ans can focus on maintaining ac-
∗   Controls for Information
                                     property management program.              curate and reliable property re-
    Technology (IT) property that
                                     An effective and efficient property       cords for sensitive and more ex-
    may contain personally iden-
                                     management program is essential           pensive items.
    tifiable information (PII) are
    lacking;                         to assure that staff have the prop-
                                                                               Note: The full audit report may be
                                     erty needed to carry out their du-
                                                                               found on NRC’s public web site.

Property Audit of the FBI by GAO (http://www.gao.gov/new.items/d06306.pdf)

Major Lapses in Accountability        tractors. Once the FBI took pos-         Conclusions
Resulted in Millions of Dollars       session of the Trilogy equip-
                                                                               FBI’s Trilogy IT project spanned 4
of Missing Trilogy Equipment          ment, it did not establish ade-
                                      quate physical control over the          years and the reported costs ex-
The FBI did not adequately            assets. Consequently, it was             ceeded $500 million. The review
maintain accountability for com-      found that the FBI could not lo-         disclosed that there were serious
puter equipment purchased for                                                  internal control weaknesses over
                                      cate over 1,200 assets pur-
the Trilogy project. The FBI re-                                               the process used by FBI and GSA
                                      chased with Trilogy funds, which
lied extensively on contractors to                                             to approve contractor charges re-
                                      were valued at approximately
account for Trilogy assets while      $7.6 million. In addition, during        lated to Trilogy, which made up the
they were being purchased,            its physical inventory counts for        vast majority of the total reported
warehoused, and installed.            fiscal years 2003 through 2005,          project cost. While this review fo-
However, the FBI did not estab-                                                cused specifically on the Trilogy
                                      the FBI identified over 30 pieces
lish controls to verify the accu-                                              program, the significance of the
                                      of Trilogy equipment valued at
racy and completeness of con-         about $167,000 that it reported          issues identified during the review
tractor records it was relying on,    as having been lost or stolen.           may be indicative of more systemic
to ensure that only the items ap-     Due to the significant weak-             contract and financial management
proved for purchase were ac-                                                   problems at FBI and GSA.
                                      nesses identified in FBI’s prop-
quired by the contractors, and to     erty controls, the actual amount
ensure that it received all those     of lost or stolen equipment could
items acquired through its con-       be even higher.
Page 4                                     OIG Information Digest                                  NUREG/BR-0304



Stolen DOT Computers                                       (http:www.fcw.com/article96913-11-22-06-Web))


An investigation into two recent     tents — including names, Social           to the report. During surveillance
laptop computer thefts from the      Security numbers and addresses            at the same restaurant where the
Department of Transportation’s       — may or may not have been en-            laptop had been stolen, the sus-
(DOT) Office of Inspector Gen-       crypted. The data on the Miami            pect stole a decoy computer —
eral (OIG) has helped uncover a      laptop was definitely not encrypted,      using the same technique that
ring of laptop thieves, according    according to OIG officials, but it is     was used in the original theft. He
to the latest status report on the   unclear whether the contents of the       used a device to punch the lock in
incidents.                           Orlando laptop were encrypted.            the passenger-side door.
                                     "This still has not been determined
On July 27, someone stole a          with absolute certainty. It was to        The suspect acknowledged steal-
DOT OIG special agent’s laptop       the best of our knowledge not en-         ing many laptops but did not ac-
from a locked car near Miami.        crypted when the laptop was sto-          knowledge taking the laptop on
The laptop contained personally      len.” “The SPII data had been en-         July 27. This individual was in-
identifiable information on about    crypted previously, but the encryp-       dicted on a federal charge of theft
133,000 Florida residents. Fol-      tion software had been disabled to        of government property for steal-
lowing that episode, officials re-   allow migration of a server and up-       ing the decoy laptop.
viewed an April theft of an OIG      dating of software.”
laptop that occurred in Orlando,                                               Interviews with the individual and
FL.                                  He added that OIG officials do not        others involved uncovered a small
                                     know for sure whether it was unen-        theft ring in which its members
It took several weeks for com-                                                 stole laptops at the restaurant and
                                     crypted at the time of the theft be-
puter crime forensics experts to                                               in the nearby vicinity. The ring
                                     cause the scripts controlling the
check the Orlando laptop’s                                                     members would load the stolen
                                     encryption process were not visible
backup files for sensitive person-                                             laptops with new operating sys-
                                     to the computer’s owner.
ally identifiable information                                                                 tems and then sell
(SPII), an OIG spokesman said.                                                                them on the used
                                     Officials are confident
                                     that the laptops were not                                computer market,
“They found about 9,000 indi-                                                                 primarily to high
                                     targeted for identity
viduals [who] were also on the                                                                school students, the
                                     theft. No credit fraud
Miami-area laptop and about 900                                                               OIG status report
                                     has resulted from the
who were not on the Miami-area                                                                states.
                                     theft of either computer,
laptop,” he said.
                                     the report states.
                                                                                               DOT OIG and an
Nearly all the individuals had                                                                 identity risk manage-
                                     “Based on the investiga-
been entered into the Orlando                                                                  ment contractor
                                     tion to date, we believe
computer as part of a criminal                                                 found no indications that any of
                                     that the risk of credit fraud in the
investigation into fraudulent li-                                              the affected individuals’ personally
                                     future is very low. The investiga-
censing. The individuals were not                                              identifiable information had been
                                     tion is nearly complete and we ex-
suspects. Rather, they had                                                     misused.
                                     pect to issue a report by the end of
picked up their commercial
                                     the year,” according to the status
driver's licenses, airman certifi-                                       A hotline established to address
                                     report.
cates, and security clearances                                           citizens’ concerns has received
from facilities where incidents of                                       more than 1,600 phone calls, e-
                                     The laptop investigation — which
fraud had been reported. The                                             mail messages and letters.
                                     was undertaken by OIG special
laptop also contained a small                                            Nearly 50 of those communica-
                                     agents, with assistance from the
number of employee records,                                              tions produced possible leads in
                                     FBI and Miami-Dade County Police
such as leave approvals and em-                                          the criminal investigation.
                                     Department — led to the arrest of
ployee evaluations.
                                     an individual suspected of stealing
Although both laptops were pro-      the Miami-area laptop, according
tected with passwords, the con-
 NUREG/BR-0304                                      OIG Information Digest                                      Page 5




Press Releases on Stolen Property                                                        (http://www.dodig.osd.mil/hotline/.)

Navy Seabees Im-                        being involved. During the course         chase requests and purchasing
plicated in the Sale                    of the investigation federal search       items for personal gain. The
of Government                           warrants were executed at resi-           estimated loss to the Govern-
Owned Tools -The                        dences in Riverside County and            ment totaled $18,602 in
Office of the In-                       San Diego County, CA. Several             HMMVV parts, MAC tools and
spector General                         sailors were identified as co-            Snap-on tools.
Department of De-                       subjects and interviewed, result-
fense announced that based on           ing in five confes-                          A total of seven Navy petty
allegation received by the De-          sions and the recov-                         officers were either court-
fense Hotline, an investigation         ery of MAC Tools                             martialed or accepted non-
determined that Navy Seabees            valued at $5,000.00.                         judicial punishment. Punish-
sold Government-owned tools                                                          ments included imprison-
                                        Further investigation                        ment, fines, reduction in
and parts on eBay.
                                        disclosed three ad-                          grades and several bad con-
The anonymous source identified         ditional sailors in-                         duct discharges.
a petty officer second class as         volved in the forgery of open pur-

Office of the United States Attorney (Eastern District of Kentucky)
                     http://www.dodig.osd.mil/IGInformation/IGInformationReleases/July2006GJpressreleases.pdf

 A United States Attorney for the       an indictment charging an un-              equipment from SOFSA. He
 Eastern District of Ken-                         named person with a              reportedly sold the items on
 tucky, and Resident Agent                        violation of Federal law.        eBay. If convicted, the maxi-
 In Charge, Department of                         The indictment alleged           mum potential penalties are 10
 Defense, Defense Criminal                        from 2003 until April            years imprisonment, a fine of
 Investigative Service, jointly                   2006, an employee of             $250,000 and supervised re-
 announce that a federal                          the Special Operations           lease for a period of 3 years.
 grand jury in Lexington re-            Forces Support Activity (SSA) in
 turned                                 Lexington, KY, stole military

 U.S. Department of State Case (http://oig.state.gov/oig/inv/summaries/14422.htm)

The Department of State (DOS)           have been donated to a charitable          was subsequently arrested and
OIG received information that a         organization. The investigation            pled guilty to a 3rd Degree
private citizen was selling com-        determined that the subject of the         Grand Theft Felony Charge un-
puters and office equipment bear-       investigation misrepresented him-          der State of Florida code. He
ing U.S. DOS property tags on the       self as belonging to the charitable        was sentenced to two years pro-
Internet and at yard sales he was       organization that was supposed to          bation and ordered to pay $373
holding at his residence. A joint       receive the property.                      in court costs.
investigation conducted with the
Coral Springs, Florida, Police De-      A search warrant of the subject's
partment determined that the pri-       residence resulted in the recovery
vate citizen had obtained the prop-     of $30,543 in stolen U.S Govern-
erty from the Department's Re-          ment property. Furthermore, re-
gional Procurement Support Of-          cords obtained from the Internet
fice, Florida Regional Center, un-      company showed that the subject
der false pretenses. The property       had earned an additional $5,562 in
in question had been classified as      proceeds from illegal sales of U.S.
excess, and was supposed to             Government property. The subject
Page 6                                      OIG Information Digest                                NUREG/BR-0304


This issue of the OIG Information Digest contained information on the responsibilities of government em-
ployees for property and supplies. In addition, we would like to provide some facts on the latest scams af-
fecting all individuals.


Something Vishy                       (http://www.fbi.gov/page2/feb07/vishing022307.htm)

It’s one of the latest break-             number to call. Those who              But if the thieves are giving
throughs in telecommunica-                call the “customer service”            out their phone numbers, they
tions—Voice Over Internet                 number (a VoIP account, not            should be easy to track, right?
Protocol, or VoIP, which en-              a real financial institution)          Wrong. Criminals can mask the
ables telephone calls                       are led through a series of          number they are calling from,
over the web...and                          voice-prompted menus                 thwarting caller ID. And in some
guess who’s hopping                         that ask for account num-            cases, the VoIP number belongs
on the VOIP band-                           bers, passwords, and                 to a legitimate subscriber whose
wagon along with                            other critical information.          service is being hacked.
millions of legitimate
customers? Crimi-                           ∗   In another version               So how prevalent is vishing?
nals, that’s who.                            you’re contacted over the           Hard to say, due to reporting
They’re using the tech-                      phone instead of by e-              difficulties. “A lot
nology to hijack identities and           mail. The call could either            of would-be victims
steal money. It already has a             be a “live” person or a re-            are reporting this
name: “vishing.”                          corded message directing               as SPAM or phish-
                                          you to take action to protect          ing,” says Dan
New wine, old wineskins.                  your account. Often, the               Larkin, Chief of the
Vishing is really just a new take         criminal already has some              FBI’s Cyber Initia-
on an old scam —phishing. You             personal information on you,           tive and Resource Fusion Unit.
know the drill: you get an e-mail         including your account or              “But we know it’s out there. Its
that claims to be from your bank          credit card numbers. That              happening.”
or credit card company asking             can create a false sense of
you to update your account in-            security. The call came from           Don’t let it happen to you.
formation and passwords                   a VoIP account as well.                Larkin recommends greeting a
(perhaps, it says cleverly, be-                                                  phone call or e-mail seeking per-
cause of fraudulent activity) by      Vishing, as you might imagine              sonal information with a healthy
clicking on a link to what ap-        from these scams, has some                 dose of skepticism. If you think
pears to be a legit website.          advantages over traditional                the call is legit, you can always
Don’t do it, of course. It’s just a   phishing tricks.                                        hang up and call
ruse, nothing more than an ille-                                                              back using the cus-
                                      First, VoIP service is                                  tomer service num-
gal identify theft collection sys-    fairly inexpensive, es-
tem.                                                                                          ber provided by the
                                      pecially for long dis-                                  financial institution
Vishing schemes are slightly          tance, making it cheap                                  when the account
different, with a couple of           to make fake calls.                                     was opened. And
variations.                           Second, because it’s                                    please contact the
                                      web-based, criminals                                    Internet crime Com-
∗   In one version, you get the       can use software pro-                                   plaint Center on 1-
    typical e-mail, like a tradi-     grams to create phony auto-                800-878-3256 if you think you
    tional phishing scam. But         mated customer service lines.              were either a vishing victim or
    instead of being directed to
                                                                                 received a suspicious call or e-
    an Internet site, you’re asked
                                                                                 mail.
    to provide the information
    over the phone and given a
NUREG/BR-0304                                        OIG Information Digest                                    Page 7




                       WE’VE MOVED!                                           HOTLINE NUMBER
                              USNRC
                   Office of the Inspector General
                                                                              1-800-233-3497
                        11555 Rockville Pike                                     TDD LINE
                         Mail Stop O 5E13
                       Rockville, MD 20852                                    1-800-270-2787




Internet Crime—The Latest Numbers
                                     http://www.fbi.gov/page2/march07/ic3031607.htm
When it comes to crime, the                online auction fraud—such as               man between 30 and 40 living in
Internet is like a Swiss Army              getting a different product than           California, Texas, Florida, or
knife—a multi-purpose tool                 you expected—making it the                 New York. Individuals who re-
that’s easy to use and highly              largest category; more than 19             ported losing money lost an av-
versatile. That’s made crystal             percent concerned undelivered              erage of $724; the highest
clear by the 2006 annual report            merchandise or payments.                   losses involved Nigerian letter
just issued by the Internet Crime                                                                fraud, with a median
Complaint Center (IC3), which              The perpetrators: Three-
                                                                                                 loss of $5,100. Nearly
shows how criminals used the               quarters were men.
                                                                                                 74 percent of the com-
‘Net to launch nine different va-          Nearly 61 percent lived in
                                                                                                 plaints said they were
rieties of fraud alone. Overall            the U.S., with half in one
                                                                                                 contacted through e-
totals: During 2006, consumers             of seven states. Other top
                                                                                                 mail, and 36 percent
filed 207,492 complaints. Com-             countries included the
                                                                                                 complained of fraud
plainants said they lost $198.4            U.K., Nigeria, Canada,
                                                                                                 through websites,
million, the highest total ever.           Romania, and Italy.
                                                                                      highlighting the anonymous na-
Types of fraud: Nearly 45 per-             Victims: All over the map. But             ture of the web.
cent of the complaints involved            the report shows that the
                                           “average” complainant was a




                                               GREETING CARD SCAM
There continue to be reports of Internet fraud related to electronic greeting cards contain-
ing malware (malicious software). The cards, which are also referred to as e-cards or
postcards, are being sent via spam.
Like many other Internet fraud schemes, the perpetrators claim the card is from a family
member or friend. Although there have been variations in the spam message and at-
tached malware, generally the spam directs the recipient to click the link provided in the e-
mail to view their e-card. Upon clicking the link, the recipient is unknowingly taken to a
malicious web page.
Beware of unsolicited e-mails. It is recommended not to open e-mails from unknown senders because
they often contain viruses or other malicious software.
